   August 24, 2005




Financial Management
Development and Management of
the Army Game Project
(D-2005-103)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
AGP                   Army Game Project
FMR                   Financial Management Regulation
MOVES                 Modeling, Virtual Environments and Simulation
NPS                   Naval Postgraduate School
USAF                  United States Air Force
U.S.C.                United States Code
                             INSPECTOR G E N E R A L
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                        August 24,2005

MEMORANDUTvl FOR DEPUTY CHIEF OF NAVAL OPERATIONS SUPPLY,
                   ORDNANCE AND LOGISTICS OPERATIONS
                 NAVAL INSPECTOR GENERAL
                 PRESIDENT, NAVAL POSTGRADUATE SCHOOL
SUBJECT: Report on Development and Management of the A m y Game Project (Report
         NO. D-2005-103)



      We are providing this report for information and use. We considered
management comments on a draft of this report in preparing the final report.
       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.

       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Byron B. Harbert at (303) 676-7392 (DSN 926-7392) or Mr. Jeffrey A. Lee at
(303) 676-7429 (DSN 926-7429). The team members are listed inside the back cover.
See .4ppendix D for the report distribution.

                               By direction of the Deputy Inspector General for Auditing:




                                           d
                                        Pau . Granetto, CP.4
                                      Assis t Inspector General
                                      Defense Financial Auditing
                                               Service
               Department of Defense Office of Inspector General
Report No. D-2005-103                                                  August 24, 2005
  (Project No. D2004-D000FD-0146.000)

        Development and Management of the Army Game Project

                                Executive Summary

Who Should Read This Report and Why? The President of the Naval Postgraduate
School, the Naval Postgraduate School Comptroller, and personnel in the Naval
Postgraduate School Research Program who are responsible for the management and
day-to-day operations of projects performed on a reimbursable basis should read this
report. The report discusses the management of the Army Game Project by the Naval
Postgraduate School.
Background. In May 2000, the Assistant Secretary of the Army for Manpower and
Reserve Affairs and the President of the Naval Postgraduate School entered into a
memorandum of agreement. The memorandum of agreement called for the Naval
Postgraduate School to develop a state-of-the-art video game for the Army. The Naval
Postgraduate School engaged their Modeling, Virtual Environments and Simulation
(MOVES) Institute to perform the research and development work. The Army’s purpose
for having the game developed was to educate potential recruits on the Army’s missions
and functions and enhance recruiting opportunities. The game simulates the highly
technological nature of modern U.S. Army warfare. The Army believed the game would
stimulate interest and assist in meeting enlistment goals.

In March 2004, the Naval Postgraduate School received a memorandum from the Army
that cited allegations of project mismanagement. As a result, the Naval Postgraduate
School management contacted the Naval Inspector General and requested they look into
the allegations raised by the Army. However, since the issues surrounding the
allegations involved an Army organization and the project in question was funded by the
Army, the Naval Inspector General referred the issue to the Office of the Deputy
Inspector General for Auditing.

Results. The MOVES Institute made 45 improper charges totaling nearly $500,000 to
the Army Game Project and an Air Force Project. Specifically, it charged Army Game
Project expenses to the Air Force Project, overcharged the Army Game Project for
software licenses that benefited other projects, and misallocated contract labor costs
between the Army Game Project and the Air Force Project. Consequently, the MOVES
Institute did not charge customers the proper amount for goods and services provided and
violated the provisions of 31 United States Code 1301(a). The Naval Postgraduate
School should take actions to correct the improper charges, develop and implement
controls to prevent future improper charges, and train Naval Postgraduate School
managers in appropriations law and hold them accountable for full compliance
(finding A).

The Naval Postgraduate School accepted a project order from the Army even though they
lacked the capability to perform a major portion of the work on the project. The DoD
Financial Management Regulation requires that an activity accepting project orders
perform a major portion of the work in-house to prevent the practice of one DoD
organization acting as a general contracting agent for another DoD organization. As a
result, the Naval Postgraduate School violated the Financial Management Regulation
requirements on project orders and gave the appearance that they were acting as the
Army’s general contractor. The Naval Postgraduate School should not accept project
orders if they do not have the resources to perform a major portion of the work ordered
and should also monitor compliance with the Financial Management Regulation
(finding B).

Internal control was not adequate to effectively manage and safeguard resources at the
MOVES Institute. As a result, appropriations law was violated, pilferable property was
not adequately safeguarded, travel regulations were not always complied with, and there
was the appearance of nepotism. The Naval Postgraduate School needs to develop new
controls and fully implement existing controls to ensure that all resources are
safeguarded, to emphasize the need to comply with travel regulations, and to prevent
employees being assigned to either supervise or be supervised by family members.
Further, both the Navy and the Naval Postgraduate School should revise their guidance
on accountability over pilferable property to be consistent with DoD guidance
(finding C). We also reviewed the management control program as it related to the
MOVES Institute and the Army Game Project. The conditions described in findings A
and C were the direct result of the control weaknesses discussed in Appendix A.
Implementation of the recommendations in this report should prevent recurrence of the
conditions.

Management Comments. The Navy concurred with the findings and recommendations;
therefore, no additional comments are required. See the Findings section and
Appendix A of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.

Management Actions. Throughout the audit we worked closely with the staff at the
Naval Postgraduate School, and we commend the staff for their cooperation and
aggressive approach to implementing corrective actions.




                                            ii
Table of Contents

Executive Summary                                    i

Background                                          1

Other Matters of Interest                           2

Objectives                                          2

Findings
     A. Charges to Project Orders                    3
     B. Capability to Perform Project Orders         8
     C. Internal Control                            10

Appendixes
     A. Scope and Methodology                       15
         Management Control Program Review          15
         Prior Coverage                             16
     B. Reconciliation of Army Game Project Funds   17
     C. General Guidance                            18
     D. Report Distribution                         20

Management Comments
     Department of the Navy                         23
Background
    The audit was performed in response to a request by the Naval Inspector General.
    The Naval Inspector General referred allegations made by an Army organization
    regarding management of an Army-funded research and development project by
    the Naval Postgraduate School (NPS). The project and related issues involved the
    Army, Navy, and Air Force.

    Development of America’s Army Game. In May 2000, the Assistant Secretary
    of the Army for Manpower and Reserve Affairs and the President of NPS entered
    into a memorandum of agreement for NPS to develop a state-of-the-art video
    game for the Army. NPS engaged the Modeling, Virtual Environments and
    Simulation Institute (MOVES), an institute within NPS, to perform the research
    and development work. The Army’s purpose for having the game developed was
    to educate potential recruits on the Army’s missions and functions and enhance
    recruiting opportunities. The game simulates the highly technological nature of
    modern U.S. Army warfare. Army officials believed the game would stimulate
    interest among potential recruits and assist in meeting enlistment goals.

    Allegations of Project Mismanagement. In March 2004, NPS received a
    memorandum from the Army citing allegations of project mismanagement.

    Air Force Project. In July 2003, the United States Air Force (USAF), Force
    Protection Battlelab, provided $470,000 to the MOVES Institute at NPS to
    develop computer software that would simulate a convoy force protection
    scenario. The Air Force planned to use the software as a training aid for USAF
    military personnel assigned to protect USAF equipment and personnel under
    transport. The convoy scenario was to be added to the existing Army Game
    Project (AGP) game software. Work on the Air Force Project was initiated in
    September 2003. In August 2004, Air Force terminated the project before
    completion because of licensing issues related to use of commercially developed
    software. The software was an essential component to developing the Air Force
    convoy scenario.
    Naval Postgraduate School. In 1945, Congress passed legislation to make NPS
    a fully accredited, degree-granting graduate institution. The school is comprised
    of four graduate schools, 14 departments, a center for executive education,
    three institutes, and many research centers. The school offers more than
    40 programs of study, ranging from the traditional engineering and physical
    sciences to the rapidly evolving space science programs. The mission of the
    school is to provide relevant and unique advanced education and research
    programs in order to increase the combat effectiveness of U.S. and Allied armed
    forces and enhance the security of the United States.

    NPS Research Program and the MOVES Institute. The research program at
    NPS is comprised of NPS funded or reimbursable projects. Reimbursable
    projects are referred to as sponsored projects, which are projects undertaken by
    NPS faculty and staff members that are funded by an external organization. The
    Army Game and Air Force projects were sponsored projects. Research and



                                        1
     development work for the AGP was performed by the MOVES Institute, an
     institute at NPS that reports to the Dean of Research.


Other Matters of Interest
     The Navy concurred with the findings and recommendations. The actions taken
     by the Navy satisfy the intent of the recommendations and are fully responsive.
     Additional comments are not required. We would also like to commend the staff
     at NPS for their cooperation and aggressive approach to implementing corrective
     actions. See the Findings section and Appendix A of the report for a discussion
     of management comments and the Management Comments section of the report
     for the complete text of the comments.


Objectives
     Our overall objectives were to evaluate allegations of project mismanagement by
     NPS of the AGP and to perform a reconciliation of funds expended and obligated
     against the project. We also reviewed the management control program as it
     related to the overall objectives. See Appendix A for a discussion of the scope
     and methodology, our review of the management control program, and prior
     coverage. See Appendix B for the reconciliation of funds expended and obligated
     against the project.




                                        2
           A. Charges to Project Orders
           The MOVES Institute made 45 improper charges totaling nearly $500,000
           to the AGP and an Air Force Project. Specifically, the MOVES Institute
           charged AGP expenses to the Air Force Project, overcharged the AGP for
           software licenses that benefited other projects, and misallocated contract
           labor costs between the AGP and the Air Force Project. The improper
           charges occurred because:

                  •   the Director of the MOVES Institute did not adhere to the
                      requirements of 31 United States Code (U.S.C.) 1301(a),
                      applicable provisions of the DoD Financial Management
                      Regulation (FMR), and NPS internal policy;

                  •   the Director of the MOVES Institute deliberately charged the
                      Air Force appropriation while awaiting funds from the Army;

                  •   NPS had not implemented controls to ensure that expenses
                      were charged to the project benefited by the expenses; and

                  •   the MOVES Institute did not have a methodology to allocate
                      contract labor costs among benefited projects.

           Consequently, the MOVES Institute did not charge customers the proper
           amount for goods and services provided and violated the provisions of
           31 U.S.C. 1301(a).


Guidance on Managing Appropriated Funds
    Government Accountability Office (GAO) Appropriations Law Manual.
    Chapter 4 of Government Accountability Office, “Principles of Federal
    Appropriations Law,” third edition, Volume 1, January 2004, discusses 31 U.S.C.
    subsection 1301(a). 31 U.S.C. subsection 1301(a) requires that public funds be
    used only for the purposes for which they were appropriated. “It prohibits
    charging authorized items to the wrong appropriation, and unauthorized items to
    any appropriation. Anything less would render congressional control largely
    meaningless.” Further, the guidance states, “transfer between appropriations is
    prohibited without specific statutory authority, even where reimbursement is
    contemplated.” In addition, it specifies that “deliberately charging the wrong
    appropriation for purposes of expediency or administrative convenience, with the
    expectation of rectifying the situation by a subsequent transfer from the right
    appropriation, violates 31 U.S.C. subsection 1301(a).”

    DoD Financial Management Regulation. DoD Regulation 7000.14-R,
    “DoD Financial Management Regulation,” Volume 14, “Administrative Control
    of Funds and Antideficiency Act Violations,” October 2004 (as revised), “governs
    financial management by establishing and enforcing requirements, principles,
    standards, systems, procedure, and practices necessary to comply with financial
    management statutory and regulatory requirements applicable to the DoD.” The


                                        3
     FMR requires that DoD entities “limit the obligation and expenditure of funds
     provided to the purposes authorized by type of fund or account.”

     NPS Guidance on Management of Sponsor Funds. “Administration and
     Management of Academic Sponsored Programs at the Naval Postgraduate
     School,” NAVPGSCOL Instruction 3900.1C, 26 April 2001, provides guidance
     on the administration and management of appropriated funds provided by other
     Government organizations for projects managed by NPS. The instruction requires
     that all sponsor funds be used to support the work statement of the proposal and
     not be utilized for other purposes. Funds cannot be “loaned” or exchanged
     between projects. Further, the guidance specifies the responsibilities of NPS
     managers associated with the administration and management of sponsored
     programs. The NPS manager in charge of a project funded by a sponsor is known
     as the principal investigator. The principal investigator is responsible for
     initiating and approving all direct costs for sponsored projects under his/her
     control, and for assuring that all expenditures initiated from a specific sponsored
     funding account are in direct support of the project defined in the approved
     proposal. The NPS Dean of Research has overall responsibility for assuring that
     NPS and sponsor requirements are met regarding the proper use of sponsored
     funds.


Air Force Project
     The MOVES Institute improperly charged AGP expenses to the Air Force
     Project. Supporting documentation indicated that 40 expenses that benefited the
     AGP totaling $268,255 were charged to the Air Force Project. The Director of
     the MOVES Institute deliberately charged the Air Force appropriation while
     awaiting funding from the Army. The improper charges included expenditures
     related to NPS faculty and staff labor, contract and service costs, equipment
     purchases, travel, and indirect cost charges. Table 1 contains details related to the
     improper charges.


               Table 1. Improper Charges Made to the Air Force Project

                                        Quantity of Improper      Amount of Improper
          Expenditure Category                Charges                 Charges
      NPS Faculty & Staff Labor                  11                   $118,856
      Contract & Service Costs                    7                    104,796
      Equipment & Supplies                       10                       9,516
      Travel                                     10                     11,130
      Indirect Cost                               2                     23,957
       Total Improper Charges                    40                   $268,255




                                           4
Charges for Software Licenses
           The MOVES Institute overcharged the AGP $231,618 for software licenses that
           benefited other projects in addition to the AGP. In December 2001, the MOVES
           Institute used a combination of AGP and other DoD funds to pay a software
           developer $200,000 for licenses authorizing use of the software for six projects,
           including the AGP, and $100,000 to upgrade the authorization for use in an
           unlimited number of projects. Associated costs for General Services
           Administration contracting service fees were $18,963. In January 2003, the
           MOVES Institute used AGP funds to pay the developer an additional $100,000
           for technical support services. Associated contracting service fees amounted to
           $6,321. The AGP was one of the six projects that used the software licenses.
           Table 2 shows the amounts charged to the AGP, the amounts that should have
           been charged, and the amounts of overcharges. Although a separate payment was
           made for unlimited use of the software, this cost did not bear any logical
           relationship to the AGP. Therefore, none of this cost is included in the table as a
           cost to be shared by the Army.

.

                   Table 2. Expenses for the Licenses and Technical Support Costs
                                                    Amount          Amount AGP
                                   Purchase           AGP           Should Have         Amount of
                     Item          Amount           Charged         Been Charged        Overcharge
                 Licenses         $318,963          $178,457          $35,440            $143,017
                 Technical
                 Support
                 Fee               106,321           106,321             17,720              88,601
                   Total          $425,284          $284,778            $53,160            $231,618


Contract Labor
           The Director of the MOVES Institute misallocated contract labor costs between
           the AGP and the Air Force Project. Eight contractors worked on both the AGP
           and the Air Force Project where costs were misallocated. Total costs of three of
           the contractors were charged to the AGP, while total costs for the remaining five 1
           were charged to the Air Force Project. The Army and Air Force projects were
           funded by separate appropriations for different purposes. No attempt was made
           by the MOVES Institute to properly allocate the labor costs. Consequently, some
           projects were charged for work not done while other projects were not charged
           for work done.

1
    The five improper charges to the Air Force Project for contract labor are also included in Table 1 as
    improper charges to Contract & Service Costs.



                                                        5
Compliance with Laws and Regulations
    The Director of the MOVES Institute did not adhere to the requirements of
    31 U.S.C. 1301(a), applicable provisions of the FMR, and NPS internal policy. In
    addition, the MOVES Director deliberately charged the Air Force appropriation
    while awaiting funds from the Army, NPS had not implemented controls to
    ensure that expenses were charged to the project benefited by the expenses, and
    the MOVES Institute did not have a methodology to allocate contract labor costs
    among benefited projects. NPS needs to remove the incorrect charges made to
    the Air Force Project and AGP and apply the correct charges to those projects.
    After corrections are made, NPS should return any unused funds to the Air Force
    and the Army. It should be noted that the associated adjustments to NPS’
    accounting records may cause an Antideficiency Act violation. In addition, NPS
    needs to implement controls to ensure that expenses are charged to the applicable
    project. Those controls should include training NPS managers on appropriations
    law and holding them accountable for their actions. Training and accountability
    are critical to preventing a recurrence of this condition in the future.


Recommendations and Management Comments
    A.     We recommend that the President of the Naval Postgraduate School:

          1. Return $268,255 of overcharges to the Air Force and $231,618 of
    overcharges to the Army Game Project plus any unobligated amounts.

           2. Apply appropriate charges to projects that were undercharged.

           3. Report to the Office of the Assistant Secretary of the Navy
    (Financial Management and Comptroller) any Antideficiency Act violations
    that were caused by necessary adjustments to the Naval Postgraduate
    Schools’ official accounting records as a result of the 31 United States
    Code 1301(a) violations.

          4. Develop and implement controls to ensure that all expenses are
    charged to the projects benefited in the correct amounts.

           5. Develop and implement a methodology to properly allocate the cost
    of contract labor in cases where contractors are performing work on
    multiple projects.

            6. Impose sanctions on Naval Postgraduate School personnel who
    violate appropriations law and/or related DoD, Navy, and Naval
    Postgraduate School guidance.

          7. Train Naval Postgraduate School Institute Directors and other
    appropriate officials on the requirements of appropriations law.




                                        6
      8. Conduct periodic reviews of project charges to determine whether
implemented controls are adequate and functioning as intended.

Management Comments. The President of the Naval Postgraduate School
concurred with all the recommendations.




                                 7
              B. Capability to Perform Project Orders
              NPS accepted a project order from the Army even though NPS lacked the
              capability to perform a major portion of the work on the project. The
              FMR requires that an activity accepting project orders perform a major
              portion of the work in-house to avoid the practice of one DoD
              organization acting as a general contracting agent for another DoD
              organization. NPS erroneously followed obsolete Navy guidance instead
              of following the FMR on project orders. As a result, NPS violated FMR
              requirements on project orders and appeared to be acting as the Army’s
              general contractor.


Guidance on Performing Project Orders
       DoD Financial Management Regulation. DoD Regulation 7000.14-R,
       “DoD Financial Management Regulation,” Volume 11A, “Reimbursable
       Operations Policy and Procedures,” Chapter 2, “Project Orders,” March 1997, as
       revised through November 2002, states,
              Project orders shall be issued only to those DoD-owned establishments that are
              capable of performing substantially the work ordered. “Substantially,” as used
              in this paragraph, means that the project order recipient shall incur costs of not
              less than 51 percent of the total costs attributable to rendering the work or
              services ordered. Total costs to render the work or services ordered include the
              costs of goods or services obtained from or provided by contractors. The
              provisions of this chapter are not intended in any way to authorize one
              DoD-owned establishment to act as a general contracting or purchasing agent
              for another entity.

Obsolete Navy Guidance. Defense Finance and Accounting Service-Cleveland
(DFAS-CL) became the proponent for Navy financial matters in January 1991. DFAS-
Cleveland issued project order guidance (undated) in Naval Standard Operating
Procedure 1000.3-M, “Appropriation, Cost and Property Accounting (Field).” The
content of this manual was a combination of previous guidelines issued by the Office of
the Comptroller, Navy and guidelines issued by DFAS-CL. The Navy/DFAS manual
was superseded by the issuance of the guidance in the FMR discussed above. The
Navy/DFAS manual defined in-house to “…also include contracts for technical support
which are usable only to the performing activity in its accomplishment of the overall
work required by the issuer.” This provision is in contrast to the FMR requirement
above, which does not allow the inclusion of contracts for technical support in the
definition of in-house. Although this guidance was not officially canceled until
May 2002, the issuance of the FMR criteria in March 1997 rendered this guidance
obsolete.




                                                 8
NPS Capability to Perform
    NPS accepted project orders from other DoD organizations, although it did not
    have the capability to substantially perform the work ordered. In performing the
    work ordered in the Army Game Project, 76 percent of the costs incurred were for
    goods or services obtained by contract.


NPS Practice
    NPS followed obsolete Department of the Navy guidance rather than following
    applicable DoD guidance. NPS management was unaware of the specific FMR
    requirement of having the capability to perform at least 51 percent of the work
    within the organization in order to accept project orders. NPS needs to implement
    controls to ensure that FMR requirements are met in accepting and accomplishing
    project orders. NPS also needs to develop a methodology to monitor compliance
    with the FMR.


Recommendations and Management Comments
    B.     We recommend that the President of the Naval Postgraduate School:

           1. Direct all Naval Postgraduate School organizations to accept
    project orders only when at least 51 percent of the work can be accomplished
    using NPS resources.

          2. Direct the Comptroller of the Naval Postgraduate School to
    develop and implement a methodology for monitoring compliance with the
    DoD Financial Management Regulation provisions for project orders.
    Management Comments. The President of the Naval Postgraduate School
    concurred with all the recommendations.




                                        9
            C. Internal Control
            Internal control was not adequate to effectively manage and safeguard
            resources at the MOVES Institute. Controls over property accountability,
            travel, and personnel assignments were ineffective or nonexistent because
            NPS managers did not place sufficient priority on implementing effective
            controls within the organization. As a result, pilferable property was not
            adequately safeguarded, instances of noncompliance with travel
            regulations occurred, and sons and daughters were assigned to work for
            their fathers.


Control Over Pilferable Property
     The MOVES Institute did not maintain inventory records or other controls over
     pilferable property that had a value of less than $5,000. The Institute’s property
     included laptop and desktop computers, cellular telephones, computer hard drives,
     and other pilferable technical equipment. Based on information provided by the
     NPS Director of Research, we estimated that at least 10% of items purchased by
     the MOVES Institute were pilferable. However, because most of these items had
     a value of less than $5,000, they were not adequately controlled. This lack of
     control over pilferable property became readily apparent when we attempted to
     follow up on an allegation that two laptop computers had been stolen from the
     MOVES Institute. There was no way to determine if the allegation had merit
     because the MOVES Institute did not maintain sufficient records for controlling
     the computers. Also, Command Evaluation, the NPS internal audit function,
     reported some of the same problems related to pilferable property in FYs 2003
     and 2004.


Compliance with Pilferable Property Guidance
     DoD guidance requiring that records be maintained on all pilferable property,
     regardless of value, was not followed. Further, Navy and NPS guidance was
     vague in defining accountability requirements over pilferable property.
     Consequently, the Navy and NPS allowed individual managers the discretion of
     controlling pilferable property costing under $5,000. Navy guidance, Secretary of
     Navy Instruction 7320.10A, requires that accountable records be maintained on
     pilferable property valued at less than $5,000, but only if it is critical to the
     activity’s business or mission and is hard to repair or replace. NPS Instruction
     11016.4A requires that all property having an acquisition cost of less than $5,000
     be recorded and tracked in the Defense Property Accountability System, but only
     if the commanding officer determines that it is classified or sensitive. Further, the
     NPS instruction defines pilferable property as being property that is critical to
     fulfilling the mission or business objectives; hard to repair or replace; and
     portable and easily converted to personal use. However, neither the Navy nor the
     NPS Instructions define the criteria by which property should be judged for
     criticality to the mission or difficulty regarding repair or replacement.
     Consequently, the instructions are vague, not consistent with DoD guidance, and

                                          10
    open to interpretation. Specific guidance related to pilferable property is in
    Appendix C.


Travel Documentation
    Our review consisted of 56 of 286 vouchers related to trips funded by the AGP
    and Air Force Project. We identified problems with 9 of the 56 vouchers.
    Problems included missing travel receipt documents, lack of proper approvals,
    approval for payment of unsupported amounts claimed, and payment of
    unauthorized non-travel related expenses on one travel voucher. We were unable
    to review 230 of 286 trips that were funded by the AGP and Air Force Project
    because prior to an August 2003 revision, the FMR allowed travelers to maintain
    receipts supporting their travel vouchers. The 2003 FMR revision required that
    all travel supporting documentation be maintained in the office that certification
    occurred. However, NPS did not implement the revised policy and continued the
    former policy of allowing travelers to maintain supporting documentation. As a
    result, complete travel documentation was not available for personnel who were
    no longer employed at NPS.


Compliance with Travel Guidance
    Travel regulations were not always followed by travelers and travel authorizing
    officials, NPS authorizing officials and travel payment personnel did not ensure
    that all vouchers were properly approved prior to payment, and internal NPS
    travel policies and procedures were not consistent with the FMR. Further, in
    annual reports issued between FY 2001-2004, Command Evaluation reported
    some of the same problems related to travel.

    Following Guidance. In some instances, travelers disobeyed travel regulations
    by claiming excess or unauthorized expenses and by self-approving a voucher. In
    other instances, travelers did not obtain approval of their vouchers. The travel
    payment office paid those vouchers instead of sending them back to the claimants
    for correction.

    NPS Guidance. NPS Instruction 4650.4E, 22 November 2002, requires travelers
    to retain all receipts for expenses for 4 years and 3 months. This requirement
    conflicts with the FMR requirement of 6 years and 3 months. See Appendix C for
    guidance related to travel.

    Defense Travel System. NPS recently implemented the Defense Travel System,
    whereby travel vouchers are submitted for payment electronically to the Defense
    Finance and Accounting Service. The Defense Travel System will not process
    travel vouchers for payment unless a proper approval has been accomplished.
    Consequently, we are not making a recommendation related to travel voucher
    approval.




                                         11
    Collection of Overpayments. When we informed the NPS travel office of two
    overpayments, the travel office took immediate action to collect the
    overpayments.


Employment of Relatives
    Sons and daughters of MOVES Institute professors were temporarily assigned to
    work directly or indirectly for their respective fathers. NPS hired three
    individuals as summer student interns and a fourth individual was hired as a
    research associate. All were initially assigned to the Computer Science
    Department at the Graduate School for Operational and Informational Sciences.
    Subsequently, those individuals were temporarily re-assigned to work on various
    projects managed by the MOVES Institute. One individual was the son of the
    MOVES Institute Director, and the other three individuals were sons or daughters
    of NPS professors who were assigned to MOVES Institute projects. All four of
    the sons and daughters performed limited work on the MOVES Institute projects.
    In one instance, the son of the MOVES Institute Director was temporarily
    assigned to work for a professor who worked for the Director. When the
    professor chastised the son of the Director for misusing Government resources
    and dressing inappropriately, the Director criticized the professor. In two other
    instances, employees attended out-of-town conferences with their fathers. One
    conference, attended by a MOVES Institute official and his son, was charged to
    the AGP. When questioned about the need for the trip, NPS officials were unable
    to provide us with adequate justification. An Army official specifically informed
    the MOVES Institute that he could not justify funding a conference attendance by
    the MOVES official’s son. Nevertheless, the MOVES official’s son was
    subsequently authorized to attend the conference. Appendix C discusses general
    guidance related to employment of relatives.


NPS Employee Assignment Process
    Although NPS had controls to ensure that employees were not permanently
    assigned to work under the supervision of relatives, NPS did not have controls
    over temporary assignments. NPS used an informal process that allowed the loan
    of employees to different work units as needs arose.
    NPS Initiatives. When we informed NPS management of the temporary
    assignments of relatives, the Director, NPS Human Resources Office, informed us
    that a formal policy would be developed and implemented at NPS to prevent the
    appearance of nepotism. The proposed policy is currently being coordinated
    through appropriate NPS management channels.




                                       12
Conclusion
    The internal control deficiencies related to property accountability, travel, and
    managing employment of relatives—as well as appropriated funds and FMR
    guidance, as discussed in findings A and B—are indicative of an organization that
    needs to re-prioritize its efforts to implement effective internal control. Greater
    emphasis should be placed on requiring managers to develop and enforce an
    effective and comprehensive system of internal control to protect the
    Government’s interests.


Recommendations and Management Comments
    C.1. We recommend the President, Naval Postgraduate School:

           a. Strengthen internal control over pilferable property by:

                  (1) Requiring that Naval Postgraduate School
    Instruction 11016.4A be revised to comply with Instruction 5000.64 and the
    DoD Financial Management Regulation.

                   (2) Identifying, inventorying, and recording in accountable
    records all pilferable property.

                   (3) Performing periodic reviews of pilferable property.

                 (4) Identifying pilferable property as an assessable unit in the
    Naval Postgraduate School Management Control Program.

           b. Eliminate identified internal control weaknesses related to travel
    by:

                  (1) Training all NPS personnel whose duties require travel on
    the provisions of travel laws and regulations.

                  (2) Revising Naval Postgraduate School Instruction 4650.4E to
    comply with the DoD travel regulations. The revision should include
    requiring authorizing officials to retain travel documentation in the office
    where certification occurred for 6 years and 3 months.

                 (3) Conducting periodic reviews of travel authorizations and
    paid vouchers.

           c. Develop a formal policy on employment of relatives that will:

                 (1) Prohibit the assignment of employees to a relative, whether
    on a temporary or permanent basis.




                                        13
              (2) Require potential conflicts of interest to be considered
before assigning relatives to any position at the Naval Postgraduate School.

             (3) Require the Director, Naval Postgraduate School Human
Resources Office, approve all assignments, reassignments, and temporary
assignments.

             (4) Require the Director, Naval Postgraduate School Human
Resources Office, to maintain an up-to-date list of all relatives employed at
the Naval Postgraduate School to be used in reviewing requested
reassignments and personnel loans for approval.

       d. Request the Naval Audit Service to accomplish a comprehensive
audit of the Naval Postgraduate School as soon as possible. The audit should
include a top to bottom review of the School’s system of internal control.

C.2. We recommend that the Deputy Chief of Naval Operations Supply,
Ordnance and Logistics Operations revise Secretary of Navy
Instruction 7320.10A to comply with DoD Instruction 5000.64 and the DoD
Financial Management Regulation by requiring adequate accountability of
pilferable property, regardless of value.

Management Comments. The President of the Naval Postgraduate School and
the Director, Supply, Ordnance and Logistics Operations Division concurred with
all the recommendations.




                                  14
Appendix A. Scope and Methodology
    We evaluated allegations of project mismanagement of the AGP by the MOVES
    Institute at NPS. In addition, we performed a reconciliation of funds expended
    and obligated against the project.

    The Army sponsored the project at a cost of more than $19 million. The project
    primarily involved an Army organization and NPS. During the audit, we also
    contacted an Air Force and another DoD organization. Further, we gathered
    related information from contractor personnel associated with the MOVES
    Institute.

    We examined accounting and funding records, contracts, travel documents,
    personnel files, inventory records, and other supporting documentation, provided
    by the Army and the Navy, for the period FY 2000 through FY 2004. Further, we
    interviewed MOVES Institute officials, the NPS Comptroller and Director of
    Research, Army officials, and contractor personnel. We also met with Air Force
    officials to discuss expenditures made against their project.

    We performed this audit from April 2004 through May 2005 in accordance with
    generally accepted government auditing standards.

    Use of Computer-Processed Data. We used data and reports generated from the
    Department Online Reporting System, Standard Accounting and Reporting
    System, Electronic Time and Attendance System, and Travel Manager System,
    but did not rely on the information in these systems to support our findings. We
    obtained source documentation, which validated the data we used from these
    systems.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Financial Management and Contract Management
    high-risk areas.


Management Control Program Review
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996, and
    DoD Instruction 5010.40, “Management Control Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the Management Control Program as it relates to the MOVES
    Institute. Specifically, we determined whether NPS had procedures and controls
    covering the wide range of issues presented in this report. We also reviewed
    management’s self-evaluation of those controls.



                                       15
       Adequacy of Management Controls. We identified material management
       control weaknesses for NPS, as defined by DoD Instruction 5010.40. Some NPS
       management controls were not adequate for implementing Federal laws, DoD
       regulations, and NPS instructions. Further, in some instances, NPS managers
       disregarded controls that were already in place. The recommendations, if
       implemented, will correct the identified weaknesses and improve the overall
       management of sponsored programs. A copy of the report will be provided to the
       senior official responsible for management controls at NPS.

       Adequacy of Management’s Self-Evaluation. NPS officials identified the
       MOVES Institute as an assessable unit. However, in its evaluation, the MOVES
       Director did not identify the specific material management control weaknesses
       identified by the audit because he did not consider the weaknesses important
       enough to report to higher management. NPS officials have included in their
       most recent Management Control Certification Statement a weakness pertaining
       to insufficient fiscal oversight on reimbursable program execution.

       Management Comments. NPS believes implementation of the
       recommendations addressed in this report should help strengthen internal control
       at NPS. In addition, to emphasize the importance of the management control
       program, the Deans and Chairs at NPS were briefed on the requirements and
       responsibilities of the program. Moreover, NPS has contracted with IBM
       Business Consultants to provide management control program awareness training.
       Also, NPS did identify pilferable property in their management control program
       as a weakness prior to our audit. Finally, the internal review function at NPS
       plans to conduct more reviews on sponsored program financial analysts and
       travel.


Prior Coverage
       During the last 5 years, the Naval Audit Service has issued one report related to
       the Management of Sponsored Programs at NPS. Unrestricted Naval Audit
       Service reports can be accessed over the Internet at
       http://www.hq.navy.mil/navalaudit. Unrestricted DoD-OIG reports can be
       accessed at http://www.dodig.mil/audit/reports.

Navy
       Naval Audit Service Audit Report No. N2003-0066, “Managing Sponsored
       Projects at the Naval Postgraduate School,” July 25, 2003




                                           16
Appendix B. Reconciliation of Army Game
            Project Funds

Reconciliation Process
     A little more than $19 million was provided to NPS by four separate Army
     organizations to fund research and development of the AGP. Using NPS
     accounting records, we performed a reconciliation of all funds expended and
     obligated against the AGP to determine the unobligated balance. As of
     May 20, 2004, $354,893 had not been obligated and was eligible to be returned to
     corresponding Army sponsors. The table below provides details showing the
     sources of funds, funding document numbers, amounts of funding, and the
     unobligated balances.


                             Reconciliation of AGP Funds

         Issuing                                         MIPR         Unobligated
          Entity       No.      MIPR Number             Amount          Balance
                     1  MIPR0HNAVL1010        $ 3,500,000              $ 95,095
                     2  MIPR1CNPSL1006           2,030,000                59,165
                     3  MIPR01L1269001           3,570,000                18,936
       ASA/M&RA 4       MIPR0222811021             400,000                     0
                     5  MIPR02228L1022             600,000                     0
                     6  MIPR02228L1023             712,985                35,540
                     7  MIPR03271L1001             500,000                     0
                     8  MIPR03237L1002           2,100,000               (30,742)
         Subtotal MIPR Amount/Unobligated Bal. $13,412,985             $177,994
       USAREC         9  MIPR3D03000077           4,000,000             176,892
                     10  MIPR3E03000092           1,387,109                    0
          Subtotal MIPR Amount/Unobligated Bal. $ 5,387,109            $176,892
       FORSCOM        11     MIPR2MJR300001               150,000              7

       TACOM          12     MIPR3EPIC00731                 49,996             0

            Total                                     $19,000,090      $ 354,893
       MIPR - Military Interdepartmental Purchase Request
       USAREC – U.S. Army Recruiting Command
       FORSCOM – U.S. Army Forces Command
       TACOM – U.S. Tank and Automotive Command


                                        17
Appendix C. General Guidance

Guidance on Pilferable Property
    DoD Instruction. DoD Instruction 5000.64, “Defense Property Accountability,”
    August 2002, provides a foundation for DoD property accountability, policies,
    procedures and practices. According to the instruction, record keeping must be
    established for pilferable items. It defines pilferable items as having a ready
    resale value or application to personal possession, resulting in the item being
    especially subject to theft.

    DoD Financial Management Regulation. DoD Regulation 7000.14-R, “DoD
    Financial Management Regulation,” Volume 4, “Accounting Policy and
    Procedures,” August 2000, with revisions through October 2003, prescribes the
    accountability requirements for DoD property, plant, and equipment. The FMR
    specifies that property, plant, and equipment considered subject to pilferage shall
    be documented in property accountability records or systems regardless of cost.

    Navy Guidance. Secretary of Navy Instruction 7320.10A, “Department of the
    Navy Personal Property Policies and Procedures,” April 2004, established the
    Navy’s accountability requirements for personal property. The Navy instruction
    states accountable records shall be established and maintained for all personal
    property having an acquisition cost of $5,000 or more, as well as items below the
    $5,000 threshold that meet all of the following three criteria:

           •   pilferable,

           •   critical to the activity’s business/mission, and

           •   hard to repair or replace.

    NPS Guidance. “Plant and Minor Property Management,” NAVPGSCOL
    Instruction 11016.4A, 11 June 2001, summarizes procedures for acquisition,
    control, accountability, and disposal of property at NPS. The instruction specifies
    that all minor personal property having an acquisition cost of less than $5,000 will
    be recorded and tracked in the Defense Property Accountability System if it has
    been determined to be sensitive and/or classified by the commanding officer, has
    a recovery period equal to or greater than 24 months, and does not meet all the
    capitalization criteria. It defines classified equipment as items requiring
    protection and control in the interest of national security and sensitive equipment
    as requiring protection and control due to statutory, regulatory, or mission
    requirements.


Guidance on Travel
    DoD Financial Management Regulation. DoD Regulation 7000.14-R, “DoD
    Financial Management Regulation,” Volume 9, “Travel Policy and Procedures,”

                                            18
     August 2004 (as revised), provides guidance on the responsibilities of individuals
     involved in the travel process. The FMR requires authorizing officials to certify
     travel claims for payment and to retain copies of travel vouchers and supporting
     receipts. The FMR requires that the documents be maintained in the office where
     certification occurred and be made available for random post payment reviews
     and audits for a period of 6 years and 3 months, in accordance with National
     Archives and Records Administration General Records Schedule Six-
     “Accountable Officers’ Accounts Records.” Further, the FMR prohibits travelers
     from certifying and approving their own travel claims.

     Internal NPS Guidance. NPS Instruction 4650.4E, 22 November 2002, requires
     travelers to retain travel-related receipts for expenses for a period of 4 years and
     3 months. The guidance further requires that authorizing officials review
     receipts.


Accountability Guidance on Personnel Practices
     United States Code. 5 U.S.C. 3110, “Employment of Relatives; Restrictions,”
     states that, “a public official may not appoint, employ, promote, advance, or
     advocate for appointment, employment, promotion, or advancement, in or to a
     civilian position in the agency in which he is serving or over which he exercises
     jurisdiction or control, any individual who is a relative of the public official. An
     individual may not be appointed, employed, promoted, or advanced in or to a
     civilian position in an agency if such appointment, employment, promotion, or
     advancement has been advocated by a public official, serving in or exercising
     jurisdiction or control over the agency, who is a relative of the individual.”
     Further, “an individual appointed, employed, promoted, or advanced in violation
     of this section is not entitled to pay, and money may not be paid from the
     Treasury as pay, to an individual so appointed, employed, promoted, or
     advanced.”




                                          19
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
 Deputy Chief Financial Officer
 Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Manpower and Reserve Affairs)
Auditor General, Department of the Army
Office of Economic and Manpower Analysis

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Vice Chief of Naval Operations
Deputy Chief of Naval Operations Supply, Ordnance and Logistics Operations
Naval Inspector General
Commander, Naval Education and Training Command
Auditor General, Department of the Navy
President, Naval Postgraduate School

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Force Protection Battlelab

Combatant Commands
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organization
Office of Management and Budget




                                          20
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        21
Department of the Navy Comments




                    23
24
25
26
27
28
29
30
31
32
33
34
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Byron B. Harbert
Jeffrey A. Lee
Samuel R. Mensch
Jason T. Hamilton
William F. Kissler
